OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/WARP’S
MANAGEMENT OF
ENVIRONMENTAL AND FOOD
SECURITY MONITORING
PROGRAMS

AUDIT REPORT NO. 7-624-06-002-P
JANUARY 31, 2006




DAKAR, SENEGAL
Office of Inspector General


January 31, 2006

MEMORANDUM

TO:                  USAID/WARP Director, Jatinder Cheema

FROM:                Regional Inspector General/Dakar, Lee Jewell III /s/

SUBJECT:             Audit of USAID/WARP’s Management of Environmental and Food Security
                     Programs (Report No. 7-624-06-002-P)

This memorandum is our final report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report and included them in Appendix II.

This report contains four recommendations to which you agreed in your response to the draft
report. Based on your plans in response to the audit findings, management decisions have
been reached on all of the recommendations. However, the four recommendations will remain
open until the planned actions are completed by the Mission. Please coordinate final actions
on these recommendations with USAID’s Audit Performance and Compliance Division within
the Management Bureau’s Office of the Chief Financial Officer (M/CFO/APC).

I appreciate the cooperation and courtesies extended to the members of our audit team




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives.............................................................................................................. 4

Audit Findings ................................................................................................................. 5

          Did USAID/WARP monitor and report on its environmental and
          food security programs in accordance with applicable requirements?.................. 5

                     Insufficient Staff Assigned to Monitor Activities ......................................... 6


          Are USAID/WARP’s environmental and food security programs on
          schedule to achieve planned results? ................................................................... 7

                     Better Collaboration between CILSS and Donors Needed........................ 8

                     Timely Release of Agricultural Data Is Essential....................................... 9

                     Food Security and Environmental Data Need To Be Safeguarded ......... 11


Evaluation of Management Comments ....................................................................... 13

Appendix I – Scope and Methodology ........................................................................ 14

Appendix II – Management Comments ....................................................................... 16
SUMMARY OF RESULTS
The objectives of this audit were to determine if (1) USAID/West African Regional
Program (WARP) monitored and reported on its environmental and food security
programs in accordance with applicable requirements; and if (2) USAID/WARP’s
environmental and food security programs are on schedule to achieve planned results.
(See page 4)

For objective 1, we concluded that USAID/WARP followed applicable requirements in
reporting on its program activities. However, some of the Mission’s monitoring activities
need to be strengthened. (See page 5).

During our field work, we noted some important factors that contribute positively to
USAID/WARP’s monitoring. However, we also found significant weaknesses in
USAID/WARP’s monitoring activities in fiscal year (FY) 2005. While USAID/WARP has
developed a detailed Performance Management Plan (PMP) for monitoring its
environmental and food security programs, only one staff member was assigned to
these programs, which was insufficient to perform even the minimum requirements of an
effective monitoring system. As a result, USAID/WARP cannot be sure that these
programs are operating as intended. We recommend that USAID/WARP develop a
strategy so that the program monitoring activities as set out in the FY 2005 PMP can be
met. (See page 7).

Under objective 2, we found that USAID/WARP’s environmental and food security
programs are, for the most part, on schedule to achieve planned results for FY 2005.
However, we noted two areas where USAID/WARP can increase its involvement to help
avert a food security crisis in the Sahel. (See page 8).

First, while the causes of the 2005 food security crisis in Niger were diverse, better
collaboration between the Permanent Interstate Committee for Drought Control in the
Sahel (CILSS) and donors would reduce the likelihood that systemic food shortages in
the Sahel will develop into another crisis. We recommend that USAID/WARP coordinate
with CILSS to encourage participation of high-level officials of all of the donor
organizations at the annual Food Crisis Prevention meeting. (See page 9).

Second, USAID/WARP should take a proactive approach in averting another food
security crisis by working with CILSS to ensure that agricultural production data is
officially released by all of the CILSS member countries in time for the annual meeting at
which CILSS notifies donors of projected agricultural shortages. (See page 10).

Finally, when we visited the AGRHYMET Regional Center in Niger, we noted that
despite the importance of monitoring meteorological data to avoid a food security crisis,
several decades of meteorological data stored at AGRHYMET was not backed up.
Without an adequate back-up system for CILSS’s environmental monitoring equipment,
an occurrence such as a natural disaster or political unrest could cause the loss of
important and irreplaceable meteorological data. We recommend that USAID/WARP, in
conjunction with other donors, develop a strategy to establish a back-up server in an
alternate location. (See page 12).




                                                                                        1
USAID/WARP agreed with all of the findings and recommendations and based on
planned actions to be taken by the Mission, management decisions have been reached
on all four recommendations. However, the recommendations will remain open until
final actions are taken by USAID/WARP and coordinated with USAID’s Audit
Performance and Compliance Division within the Management Bureau’s Office of the
Chief Financial Officer (M/CFO/APC). (See page 13.)




                                                                                2
BACKGROUND
The USAID/West African Regional Program (WARP), headquartered in Accra, Ghana,
functions as a USAID Mission to deal with West African development challenges that are
most effectively addressed at a regional level. In fiscal year (FY) 2005, USAID/WARP
allocated $3.2 million to implement activities under its strategic objective to strengthen
and implement food security and natural resource management policies in West Africa.

USAID/WARP relies on the Permanent Interstate Committee for Drought Control in the
Sahel (CILSS1) to implement its environmental and food security programs. CILSS is
widely recognized as the key entity working with national governments and donors to
prevent a food security crisis in West Africa. CILSS is an intergovernmental organization
created in 1973 with the mandate to “seek to assure food security and to combat the
effects of drought and desertification for a new ecological balance in the Sahel.” CILSS
receives financial support from several donors in addition to USAID/WARP, as well as
technical support from the U.S. Geological Survey.

CILSS operates out of three centers located in three different countries. Each center
receives funding from USAID/WARP independently, and each reports directly to
USAID/WARP quarterly and annually. CILSS Headquarters, located in Ouagadougou,
Burkina Faso, is responsible for coordinating the activities of the other two sites and
formulating overall policy for CILSS. The Sahel Institute (INSAH), located in Bamako,
Mali, is a research institute that provides training to representatives from CILSS member
countries and disseminates new technologies for improving agricultural production. The
AGRHYMET Regional Center, located in Niamey, Niger, is a specialized institute where
satellite images provided by the U.S. Geological Survey are analyzed for the purpose of
providing information to policy makers regarding land use and land cover trends.
Additionally, the AGRHYMET Regional Center is responsible for monitoring agricultural
and environmental data related to food security and natural resource management. The
data collected and analyzed by CILSS is subsequently used by other food security
organizations, such as the World Food Program, to make decisions on disaster
response and emergency food aid.

In FY 2005, one staff person at USAID/WARP was primarily responsible for overseeing
and monitoring CILSS’ activities at all three sites. Nine West African countries are
members of CILSS—Burkina Faso, Cape Verde, Chad, the Gambia, Guinea Bissau,
Mali, Mauritania, Niger and Senegal.




1
 CILSS is the acronym for the entity’s name in French, Comité Permanent Inter-Etats de Lutte
contre la Sécheresse dans le Sahel.


                                                                                               3
AUDIT OBJECTIVES
In accordance with its fiscal year (FY) 2005 audit plan, the Regional Inspector
General/Dakar performed this audit to answer the following audit objectives:

       •   Did USAID/WARP monitor and report on its environmental and food security
           programs in accordance with applicable requirements?

       •   Are USAID/WARP’s environmental and food security programs on schedule
           to achieve planned results?

Appendix I contains a complete discussion of the scope and methodology of the audit.




                                                                                       4
AUDIT FINDINGS
Did USAID/WARP monitor and report on its environmental and
food security programs in accordance with applicable
requirements?
USAID/WARP followed applicable requirements in reporting on its program activities.
For example, we traced the data reported in the FY 2005 Annual Report to source
documents for accuracy and found no exceptions. However, some of the Mission’s
monitoring activities need to be strengthened.

In fiscal year (FY) 2005, USAID/WARP developed a new Performance Management
Plan (PMP) that included all new indicators for its environmental and food security
monitoring programs. The new indicators were designed to be more in line with
USAID/WARP’s manageable interest. For example, USAID/WARP’s FY 2004 lead
indicator for this strategic objective was to measure progress against the goal of
reducing the number of people in West Africa who are food insecure by 25 percent. In
practice, USAID/WARP found that this information was neither measurable nor
attributable to USAID/WARP. As a result, USAID/WARP replaced this indicator with an
assessment of customer2 satisfaction with the services and programs delivered by
CILSS.

Based on the U.S Government Accountability Office (GAO) guidance and USAID’s
Automated Directives System (ADS) requirements for program monitoring, we found that
USAID/WARP’s Performance Management Plan (PMP) contains the elements of a
comprehensive strategy for effectively monitoring USAID/WARP’s environmental and
food security programs. For example, the PMP establishes long and short-term targets
and requires the CTO to conduct regular site visits to verify periodic reporting data,
obtain evidence of supervisory review over the reporting process and to monitor
progress towards planned achievements.

Regarding USAID/WARP’s reporting activities, we reviewed the information that
USAID/WARP reported in its FY 2005 Annual Report related to USAID/WARP’s
environmental and food security monitoring program activities in FY 2004. In FY 2004,
USAID/WARP found it necessary to discard 7 of the 13 indicators it planned to track (for
the reasons stated in the previous paragraph), which led to the design of all new
indicators for FY 2005. Of the 6 remaining indicators for FY 2004, USAID/WARP
reported on 4 in its FY 2005 Annual Report. We traced the reported information to
source documents to confirm its accuracy in each case and found no exceptions.

Two other important factors contributed positively to USAID/WARP’s monitoring and
reporting activities in fiscal year FY 2005. First, USAID/WARP organized and funded the
first consolidated financial audit of CILSS in 2002, and in each successive year,
USAID/WARP successfully expanded the number of donors that share the expense and

2
 Customers are defined as CILSS member country Ministers of Agriculture and the representatives from
each country’s internal body responsible for liaising with CILSS.




                                                                                                       5
oversight role for the annual audit. Second, USAID/WARP’s Cognizant Technical Officer
(CTO) is unusually knowledgeable about CILSS from having served as the Director of
one of CILSS’s three sites, AGRHYMET, for 7 years. His prior experience makes him
uniquely well-qualified to monitor the CILSS activities funded by USAID/WARP and to
find creative ways to improve the programs.

Nevertheless, despite these positive observations, there were notable weaknesses in
USAID/WARP’s monitoring activities for FY 2005.

Insufficient Staff Assigned
To Monitor Activities


 Summary: USAID/WARP’s new Performance Management Plan increased the
 requirements for monitoring its food security and environmental programs in FY
 2005. However, with only one CTO assigned responsibility for overseeing the
 activities of CILSS organizations, the staffing allocation was insufficient to
 perform the monitoring requirements. In fact, the CTO was unable to perform
 even the minimum requirements of an effective monitoring system during FY
 2005 due to unexpected events related to the CILSS headquarters that took
 priority. Mission officials explained that, due to limited resources and other
 Mission priorities, additional staff could not be assigned to assist the CTO in his
 monitoring responsibilities. As a result, USAID/WARP cannot be sure that its
 FY 2005 environmental and food security programs operated as intended.



While USAID/WARP has developed a detailed monitoring plan, having only one CTO
assigned to execute the program monitoring requirements is insufficient. For example,
the new PMP requires the CTO to conduct site visits to assess the governance
mechanisms, management systems, human resource policies and procedures, and
financial management practices at three sites located in three different countries, along
with several other new, time-consuming and resource-intensive activities. However, due
to unanticipated priorities such as those described below, the CTO did not have time in
FY 2005 to perform even the basic activities of an effective monitoring system, such as
conducting data quality assessments.

A complicating factor in FY 2005 drew even more of the CTO’s time away from basic
monitoring activities for USAID/WARP’s environmental and food security programs. In
FY 2004, USAID/WARP collaborated with other CILSS’s donors to hire an independent
consultant to review the performance activities at CILSS Headquarters. When the
consultant’s report was issued, the Board of Directors agreed with its recommendation
that CILSS Headquarters undergo a major restructuring. The restructuring required the
dismissal of the entire CILSS Headquarters staff at the end of FY 2004. As of
September 2005, CILSS had still not hired most of the staff needed to operate;
consequently, CILSS Headquarters did not perform any monitoring activities or produce
any quarterly reports as required by USAID/WARP in FY 2005

Fortunately, but at the expense of USAID/WARP’s overall monitoring activities,
USAID/WARP’s CTO for its environmental and food security monitoring programs was in



                                                                                       6
a unique position to assist with the CILSS Headquarters restructuring as a result of his
prior experience as Director of one of the CILSS sites. In FY 2005 he served on the
recruiting committee to hire senior management, assisted with the drafting of the scopes
of work, reviewed applications, and conducted interviews. In addition, the CTO worked
closely with the new Executive Secretariat of CILSS to ensure a smooth transition. The
restructuring of CILSS Headquarters did not affect the other two CILSS sites, which
continued to perform required monitoring activities and submit quarterly reports to
USAID/WARP during FY 2005. However, the CTO’s focus on the CILSS Headquarters
restructuring took time away from his ability to meet his expanded responsibilities under
the new PMP.

The USAID/WARP Mission Director agreed that one CTO was insufficient to effectively
monitor the activities of all three CILSS sites. She explained that in FY 2005, staff
turnover and competing priorities prevented the Mission from performing all of the
activities in their PMP that they had planned to monitor CILSS. She also acknowledged
that in FY 2006, additional staff needs to be allocated to assist the CTO in monitoring
CILSS.

We conclude that USAID/WARP did not allocate enough staff to effectively monitor the
activities at all three of the CILSS sites in FY 2005. Furthermore, because CILSS
Headquarters did not perform any monitoring activities and did not produce complete
quarterly reports as required by USAID/WARP in FY 2005, USAID/WARP needs to be
extra vigilant in monitoring the $950,000 it provided to CILSS Headquarters as part of
the $3.2 million awarded to CILSS overall in FY 2005. Without sufficient staff to perform
program monitoring activities at all three CILSS sites, USAID/WARP cannot be fully
assured that its food security and environmental programs are operating as intended.

To address this weakness, we make the following recommendation.

   Recommendation No. 1: We recommend that USAID/WARP develop a strategy
   so that the program monitoring activities as set out by the FY 2005 Performance
   Management Plan can be met.



Are USAID/WARP’s environmental and food security programs
on schedule to achieve planned results?
Based on reviews of CILSS progress reports, USAID/WARP’s environmental and food
security programs are, for the most part, on schedule to achieve their planned results for
FY 2005. Despite these achievements, however, in 2005 USAID/WARP’s food security
monitoring program failed to achieve its overarching goal of averting a food security
crisis in the Sahel region of West Africa.

When we compared planned results at each of CILSS’s three sites to actual results for
FY 2005, we found that USAID/WARP’s environmental and food security programs are
on schedule to achieve planned results with a few anticipated delays. For example, the
sites reported the following achievements in FY 2005:

   •   CILSS Headquarters planned to conduct two workshops to train 75 individuals in


                                                                                        7
       environmental policy issues by the end of FY 2005. As of March 31, CILSS had
       conducted one policy workshop with 30 participants. WARP officials explained
       that, due to the restructuring at CILSS Headquarters, their targets would not be
       met by the end of the fiscal year. However, USAID/WARP expects the activities
       to be completed before the end of the calendar year.

   •   AGRHYMET planned to have eight countries with a well-functioning crop-
       monitoring system by the end of FY 2005; as of March 31, seven countries had
       achieved this goal.

   •   INSAH planned to develop 6 new agricultural technologies in FY 2005. As of
       September 30, INSAH had exceeded its annual goal, having developed and
       transferred 22 new technologies to representatives of CILSS member countries.

Despite these project-level accomplishments, the Sahel region of West Africa
experienced one of its worst food security crises in recent years during 2005. Since the
primary purpose of USAID/WARP’s environmental and food security monitoring
programs is to avert such a crisis in the Sahel, USAID/WARP needs to strengthen its
involvement with CILSS at the highest level to ensure that its environmental and food
security program activities are aligned with its overall objective, as discussed below.



Better Collaboration
Between CILSS and
Donors Needed

  Summary: CILSS’s primary purpose is to avert a food security crisis in the
  Sahel by monitoring agricultural production data and coordinating with donors to
  help member countries meet their food needs. Yet no high level officials
  attended the annual food crisis prevention meeting in FY 2005 where CILSS
  communicates expected agricultural shortfalls to donors. CILSS officials told us
  that donor complacency caused this erosion in communication.              Better
  collaboration between CILSS and its donors would help avert another food
  security crisis, such as the one that struck Niger in 2005.


CILSS’s primary purpose is to avert a food security crisis in the Sahel by monitoring
agricultural production data and coordinating with donors to help member countries meet
their food needs. As early as September 2004, CILSS reported that agricultural
shortfalls were expected to adversely impact food security in Niger for 2005. The normal
procedure is for CILSS to present the official agricultural data to officials from the donor
organizations at an annual Food Crisis Prevention Meeting held in November. CILSS
then coordinates with donors and other regional food security organizations to conduct
site visits to the areas where shortages were reported. In March 2005, based on
assessments made from site visits to Niger, CILSS again warned donors of a developing




                                                                                          8
food security crisis in that country3. But by the time the donors reached consensus on
how to address the situation, the developing crisis had become a reality.

While CILSS officials do not blame the food security crisis in Niger on slow donor
response, they did tell us that the 2005 crisis exposed an erosion of communication
between CILSS and donors over the years. The erosion in communication was due to
complacency on the part of the donor community. This complacency may be partly
attributed to the success CILSS has had over the years in averting a food security crisis,
which allowed donors to become more passive in their role. As evidence of this
complacency, CILSS officials pointed to the minimal attendance by senior officials from
donor organizations at the annual Food Crisis Prevention Meeting over the past 5 years.
Not coincidentally, attendance by senior officials from donor organizations plummeted 5
years ago when CILSS changed the location of the Food Security Crisis Prevention
Meeting to a Sahelian country each year instead of a European capital, according to the
CTO. Unless high-level officials from all donor organizations reaffirm their commitment
to CILSS by attending the November Food Crisis Prevention Meeting, USAID/WARP
and the rest of the donor community risk failing in their role of preventing regular food
shortages from developing into a food security crisis in the Sahel.

To address this weakness, we make the following recommendation.

    Recommendation No. 2: We recommend that USAID/WARP coordinate with the
    Permanent Interstate Committee for Drought Control in the Sahel (CILSS) to
    encourage participation of high-level officials from all of the donor organizations
    at the Food Crisis Prevention meeting.



Timely Release of Agricultural
Data Is Essential

Summary: CILSS’s standard operating procedure is for member countries to officially
release their agricultural data following the annual growing season. Once this data is
available, USAID/WARP and other donors formulate a consensus on how to address
any shortages that the host country cannot absorb. However, after the 2004 growing
season, four of CILSS’s member countries did not officially release their agricultural data
on a timely basis. CILSS officials told us that member countries may have been
reluctant to release unfavorable agricultural data for fear of repercussions from
international financial institutions. In the case of Niger, the delay in the release of data
led to one of the worst food security crises West Africa has experienced in recent years.


According to CILSS officials, agricultural shortages are not uncommon in the Sahel, and
CILSS Headquarters had preliminary data predicting this year’s regional food shortages
as early as September 2004. However, CILSS Headquarters did not receive the
required official agricultural production data from all the Sahelian countries in time to
present the results at last year’s Food Security Crisis Prevention Meeting. It is during

3
  The food security crisis in Niger was deemed “structural” because it was restricted to geographic pockets
of Niger and only affected certain vulnerable members of society, most notably children.


                                                                                                         9
this meeting, held annually in November, that CILSS presents data from each member
country in order to alert donors to potential problems as well as to develop a plan
collaboratively with the countries to mitigate anticipated crises.

Last year, however, the governments of Mali, Burkina Faso, Chad and Niger did not
release their data to CILSS headquarters in time for the meeting and, as such, CILSS
Headquarters could not assist those countries in developing a mitigation plan. CILSS
officials told us that member countries may have been reluctant to release unfavorable
agricultural data for fear of negative repercussions from international financial
institutions. As a result, the four countries attempted to address their food shortage
problems without additional donor resources. For example, Mali, Burkina Faso and
Chad drew upon their grain and monetary reserves to purchase supplemental food. The
situation in Niger, however, was more serious. Niger experienced a food security crisis
in pockets of the country because once their stockpiles of grain were depleted, they
found that regional markets had been closed owing to unforeseen political
circumstances. As a result, the price of grain skyrocketed, and Niger’s monetary
reserves were insufficient to purchase needed supplemental food.

Because the government of Niger did not release their official data in time for the Food
Security Crisis Prevention Meeting, neither CILSS nor donors were able to take
preventive actions. Nevertheless, as the situation in Niger worsened, USAID did
respond to help resolve the crisis. But this reactive mode—airlifting more than 250 tons
of food aid to Niger at a cost of over half a million dollars—was more costly and less
effective than if an earlier, more proactive approach had been taken to mitigate the
crisis.

USAID/WARP officials told us that, in the past, when they have asked host governments
directly to release their agricultural data, the governments did so without delay. In light
of the recent food security crisis, USAID/WARP officials agreed that it is necessary for
USAID/WARP to take an active role in ensuring the timely release of data from CILSS
member countries because the release of the official data is the essential starting point
for developing a mitigating strategy to avoid another food security crisis.

To address this weakness, we make the following recommendation.

   Recommendation No. 3: We recommend that USAID/WARP work with the
   Permanent Interstate Committee for Drought Control in the Sahel (CILSS) to
   ensure that data is released by all of the Sahelian countries in time for the Food
   Crisis Prevention Meeting in November, when the implementing partner presents
   the donors with projected agricultural shortages.




                                                                                        10
Food Security and
Environmental Data Need To
Be Safeguarded

 Summary: CILSS officials recognize the importance of backing up the agricultural
 and meteorological monitoring data that they collect, analyze and store for each of
 the CILSS member countries. However, the CILSS site where USAID/WARP has
 provided over 90 percent of the monitoring equipment and trained CILSS staff in how
 to use it has no back-up system. Storing back-up data at an alternate location is a
 key component of an organization’s continuity of operations plan. CILSS officials told
 us that they lack funding to implement a back-up system at an alternate site. Without
 an adequate back-up system for CILSS’s environmental monitoring equipment and
 data, an occurrence such as a natural disaster or political unrest could cause the loss
 of important and irreplaceable meteorological and agricultural information for the
 Sahelian countries.



The AGRHYMET Regional Center in Niger is performing a critical service for
environmental and food security monitoring in West Africa. AGRHYMET is responsible
for collecting data, and analyzing and disseminating information on food security and
natural resource management across the Sahel. The scientific and technical information
produced by AGRHYMET is generated from ground and satellite data that is transmitted
electronically and stored on a server located on site. AGRHYMET monitors the
meteorological data to alert the community when there are anticipated agricultural
shortages and uses satellite images to study land use and land cover trends that can
provide vital information to natural resource managers. Among the groups who rely on
this data for decision-making are farmers, agricultural ministries in CILSS member
countries, international development agencies, non-governmental organizations, and
universities and other research institutes.

While AGRYMET receives funding from several donors, USAID/WARP alone has
provided CILSS with over 90 percent of the technical equipment and has trained CILSS
staff in how to use the equipment to monitor agricultural conditions in the Sahel. There
is no other organization performing these services in West Africa.




                                                                                       11
                  Satellite images like this one provided by the U.S.
                  Geological Survey showing that the area of Lake
                  Chad diminished significantly from 1973 to 1987
                  help USAID/WARP convince policy makers of the
                  importance of protecting the environment from
                  further degradation.

Despite the importance of monitoring and storing this data, we found that the several
decades of meteorological data stored at AGRHYMET are not backed up anywhere.
AGRHYMET officials stated that they were aware of this vulnerability but were unable to
address the problem with the current funding levels. Continuity of Operations is a
Federal government-wide initiative to ensure the U.S. government’s ability to fulfill
essential roles and functions in response to a full spectrum of threats. According to
USAID’s Facility Management Division, essential elements of a viable Continuity of
Operations (COOP) plan include establishing alternate facilities and protecting vital
records and databases. Alternate facilities are necessary in order to support operations
in a threat-free environment. The protection and ready availability of documents,
references, records, and information systems is critical to support essential functions.

Without an adequate back-up system in an alternate location, an occurrence such as a
natural disaster or political unrest could cause important and irreplaceable
meteorological data for the Sahelian countries to be permanently lost. In order to protect
the data and USAID/WARP’s investment, we make the following recommendation.

   Recommendation No.4: We recommend that USAID/WARP, in conjunction with
   other donors, develop a strategy to establish a back-up server in an alternate
   location.




                                                                                       12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/WARP agreed with all of the findings and recommendations in the draft audit
report, and indicated that appropriate actions would be taken to address the four
recommendations. Therefore, management decisions have been reached for all four
recommendations. However, because the planned actions have not been completed by
the issuance date of this report, the recommendations remain open until final action is
taken by USAID/WARP and coordinated with USAID’s Audit Performance and
Compliance Division within the Management Bureau’s Office of the Chief Financial
Officer (M/CFO/APC). Management’s comments are included in their entirety in
Appendix II.

Recommendation No. 1 states that USAID/WARP develop a strategy so that the
program monitoring activities as set out by the FY 2005 Performance Management Plan
(PMP) can be met. The Mission agreed with this recommendation and the Cognizant
Technical Officer will develop a monitoring plan for the Mission Director’s review to
ensure that the PMP activities are performed.

Recommendation No. 2 states that USAID/WARP coordinate with the Permanent
Interstate committee for Drought Control in the Sahel (CILSS) to encourage participation
of high-level officials from all of the donor organizations at the Food Crisis Prevention
meeting. The Mission agreed with this recommendation and is going to work closely
with high-level donor officials to encourage greater participation. The Mission Director
will attend the next policy and planning meeting to reinforce this point and get agreement
from the other donors.

Recommendation No. 3 states that USAID/WARP work with CILSS to ensure that data is
released by all of the Sahelian countries in time for the Food Crisis Prevention Meeting
in November when the implementing partners present the donors with projected
agricultural shortages. The Mission agreed with this recommendation and will make
strong recommendations to CILSS by letter and will also hold a follow-up meeting to
ensure that the data is released by all CILSS countries in time for the November
meeting.

Recommendation No. 4 states that USAID/WARP, in conjunction with other donors,
develop a strategy to establish a back-up server in an alternate location. The Mission
agreed with this recommendation and is reviewing options with other donors to provide a
back-up server in an alternate location.

Finally, USAID/WARP asked that we make two small clarifications in the body of this
report. First, instead of saying that CILSS Headquarters submitted no quarterly reports
during FY 2005, they asked us to say that CILSS Headquarters’ reporting was
incomplete. Second, they pointed out that cost may or may not have been the reason
for CILSS to change the venue for the Food Security Crisis meeting from a European
capital to a Sahelian country. We made both of these clarifications to the report.




                                                                                       13
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar conducted this audit in accordance with U.S.
generally accepted government auditing standards to answer the following two audit
objectives:

   (1) Did USAID/WARP monitor and report on its environmental and food security
       programs in accordance with applicable requirements?

   (2) Are USAID/WARP’s environmental and food security programs on schedule to
       achieve planned results?

The audit was conducted at USAID/WARP in Accra, Ghana with site visits to CILSS offices
in Mali, Burkina Faso and Niger from September 12, 2005, to September 29, 2005. The
total amount of funding in fiscal year (FY) 2005 for the programs under audit was $3.2
million.

In planning and performing the audit, we assessed the effectiveness of internal controls
related to monitoring and reporting USAID/WARP’s environmental and food security
monitoring programs. For audit objective 1, we identified pertinent internal controls such
as maintaining documentation related to monitoring and reporting activities. For audit
objective 2, we identified planned targets for FY 2005 and compared reported
achievements as of March 31, 2005 to determine if USAID/WARP’s environmental and
food security monitoring programs are on schedule to achieve planned results.

In addition to evaluating USAID/WARP’s controls, we visited CILSS offices in three
locations and evaluated each of their internal control activities over monitoring and
reporting to determine the extent to which USAID/WARP can rely on the information
reported by CILSS. CILSS’ financial auditors were conducting field work at the three
CILSS sites at the same time that RIG/Dakar was conducting field work for this
performance audit, which allowed RIG/Dakar to review the results of the financial
auditors’ internal control tests of CILSS’ financial system.

The scope of the audit included an evaluation of USAID/WARP’s management controls to
ensure that, overall, activities are aligned towards achieving the broad intent of
USAID/WARP’s environmental and food security monitoring programs.

The scope of the audit also included interviewing officials from USAID/WARP, USAID’s
Famine Early Warning System Network and USAID’s Office of Foreign Disaster
Assistance, as well as officials at each of the three CILSS offices, to obtain an
understanding of the 2005 food security crisis in Niger.




                                                                                       14
                                                                             APPENDIX I


Methodology
To answer objective 1, we reviewed key program documents such as the Mission’s
Annual Reports, Performance Monitoring Plans, assessments, funding instruments, and
documentation maintained by Mission staff. We also interviewed responsible personnel
at USAID/WARP concerning the environmental and food security monitoring programs.

The auditors met with appropriate Mission personnel and the implementing partner to
obtain an understanding of program activities. Internal controls over program monitoring
were assessed at USAID/WARP and at each of the CILSS offices. When examining the
processes for monitoring program performance, auditors noted any deviations from the
intended controls and determined if the controls complied with USAID’s Automated
Directive System requirements.

The auditors verified that activities funded in FY 2005 by USAID/WARP were included in
the implementing partner’s annual plan and that reporting complied with USAID/WARP’s
guidelines. To verify the accuracy of performance outputs reported to USAID/Washington
in the FY 2005 Annual Report (for activities conducted in FY 2004), we traced reported
data back to source documentation provided by the implementing partner to the Mission,
such as progress reports. To determine the accuracy of reported data, we traced the
partners’ data back to their supporting documentation for results of indicators reported in
their progress reports. Our verification included examining source documents, including
both manual and electronic records.

RIG/Dakar judgmentally selected documentary evidence such as quarterly reports and
site visit reports at each CILSS office to verify the effectiveness of each entity’s
monitoring and reporting processes. RIG/Dakar verified that inventory funded by
USAID/WARP was actively in use and that each item was properly branded with the
USAID logo.

To answer audit objective 2, for FY 2005 program activities, we considered projects to
be on schedule to achieve planned results if indicators had achieved at least 50 percent
of their 9/30/05 planned outputs by March 31, 2005. In assessing the extent to which
the program met its intended results for program activities, we compared implementing
progress reports with USAID/WARP-approved work plans. In addition to looking at the
data, through our site visits, we took into consideration our observations of the impact of
activities on targeted communities.

To obtain an understanding of the 2005 food security crisis in Niger, RIG/Dakar interviewed
officials from USAID/WARP, Famine Early Warning System and USAID’s Office of Foreign
Disaster Assistance, as well as officials at each CILSS office. In order to observe how
CILSS uses its monitoring data to prevent a food security crisis in the Sahel, auditors
participated in a 3-day CILSS conference in Bamako, Mali where representatives from the
9 CILSS member countries presented their agricultural production data for the current
growing season and shared information on potential shortfalls in food production.




                                                                                        15
                                                                               APPENDIX II



MANAGEMENT COMMENTS



January 25, 2006


MEMORANDUM

TO:            Lee Jewell III, RIG/Dakar

FROM:          Jatinder Cheema, Director, USAID/WARP /s/

SUBJECT:       AUDIT OF USAID/WARP’S MANAGEMENT OF ENVIRONMENTAL AND
               FOOD SECURITY MONITORING PROGRAMS. (AUDIT REPORT NO.
               7-624-06-002-P)



USAID/WARP welcomes RIG/Dakar’s observations that for the most part USAID/WARP
monitored and reported on its CILSS program activities in accordance with applicable
requirements; however some monitoring activities need to be strengthened. Following
are our comments regarding how Mission will address the recommendations of subject
audit report.


Recommendation No.1: We recommend that USAID/WARP develop a strategy so
that the program monitoring activities as set out by the FY 2005 Performance
Management Plan can be met.

Mission’s comments: Mission concurs with the recommendation

Action to be taken: The Cognizant Technical Officer (CTO) will develop a monitoring
plan for a six month period for the Mission Director’s review and approval to ensure that
the PMP is met. This plan will include a schedule for site visits by the CTO as well as by
CILSS staff, submission of timely reports and recommendations, and follow up actions
as identified by these monitoring visits per the PMP. The monitoring plan will also
identify other staff from the SO team who will assist the CTO as needed in monitoring of
the three CILSS organizations. The WARP Mission is in a process of harmonizing its
staff resources per Africa Bureau guidance and, until the harmonization plan is finalized,
is not in a position to recruit new staff. The Mission will make every effort to use existing
staff to ensure proper monitoring of the CILSS activities.


                                                                                          16
                                                                            APPENDIX II



The Mission will also ensure that the CTO does not get involved in CILSS internal
management issues which are the responsibility of CILSS and beyond the scope of work
of the CTO. The Mission will send a letter to CILSS identifying their weaknesses in
submitting quarterly reports and ensure compliance within the next quarter.


Recommendation No.2: We recommend that USAID/WARP coordinate with the
Permanent Interstate Committee for Drought Control in the Sahel (CILSS) to
encourage participation of high-level officials from all of the donor organizations
at the food Crises prevention meeting.

Mission’s comments: Mission concurs with the recommendation

Action to be taken: Mission management will work closely with high level donor officials
to encourage greater participation. Mission staff attending the December meeting in
Paris raised this issue with the donors, and we have obtained consensus that the next
CILSS annual food security meeting will be held in conjunction with the Club du Sahel
meeting, thus ensuring greater high-level participation from all donors. Nevertheless, the
Mission Director will attend the next policy and planning meeting to be held in the region
at mid-year and reinforce this point and get agreement from the donors.


Recommendation No.3: We recommend that USAID/WARP work with the
Permanent Interstate Committee for Drought Control in the Sahel (CILSS) to
ensure that data is released by all of the Sahelian countries in time for the Food
Crises Prevention Meeting in November, when the implementing partner presents
the donors with projected agriculture shortages.

Mission’s comments: Mission concurs with the recommendation

Action to be taken: Mission management accepts the importance of this
recommendation and will make strong recommendations to CILSS by letter and will also
hold a follow up meeting to ensure that data are released by all Sahelian countries in
time for the November meeting. It might be noted, that only Niger of the nine countries
did not submit complete and timely data at the November 2005 meeting.


Recommendation 4: We recommend that USAID/WARP, in conjunction with other
donors, develop a strategy to establish a back-up server in an alternative location.

Mission’s comments: Mission concurs with the recommendation

Action to be taken: USAID/WARP has already started this dialogue with other donors
and is reviewing options to provide a back up server in an alternative location, most
likely at the CILSS headquarters in Ouagadougou.

In addition to the above, USAID/WARP would appreciate two small clarifications to the
text of the draft audit report, both of which concern our counterpart organization CILSS.
On page 5, first paragraph, the last sentence says that CILSS did not submit any
quarterly reports in FY 2005. In fact, CILSS did produce and submit some incomplete


                                                                                       17
                                                                             APPENDIX II


quarterly reports, so although the text is technically correct, we would like to modify the
statement to reflect their efforts to comply. Second, on page 7, the change in venue of
the Food Security Crisis Prevention Meeting from Europe to a Sahelian country was
made by CILSS when the Club du Sahel withdrew from participation, leaving CILSS in
charge of the activity. CILSS felt that it was more appropriate for the meetings to take
place in a Sahel country than in Europe. Cost may or may not have been a
consideration in their decision.




                                                                                        18
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
